fan

OCKLE

2311 Douglas Street CA E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs i

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-261

JEFF SCHULZ, et al.,
Petitioners,
v.

THE PRESBYTERY OF SEATTLE, A WASHINGTON NONPROFIT
CORPORATION; THE FIRST PRESBYTERIAN CHURCH OF SEATTLE,
A WASHINGTON NONPROFIT CORPORATION;

ROBERT WALLACE, PRESIDENT OF THE FIRST PRESBYTERIAN
CHURCH OF SEATTLE; AND WILLIAM LONGBRAKE, ON BEHALF
OF HIMSELF AND SIMILARLY SITUATED MEMBERS OF
THE FIRST PRESBYTERIAN CHURCH OF SEATTLE,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 8872 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 30th day of October, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

he wets, | GENERAL NOTARY-State of Nebraska
RENEE J. GOSS [hens Aerce. 0. tooo’ Qudraw- &. Gh

My Comm. Exp. September 5, 2023
Notary Public Affiant

 

40175,
